Audit Report




OIG-11-011

SAFETY AND SOUNDNESS: Failed Bank Review of Community
National Bank at Bartow


November 03, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                             November 03, 2010


             OIG-11-011

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Community National Bank at Bartow


             This memorandum presents the results of our review of the failure of Community
             National Bank at Bartow (Bartow) of Bartow, Florida. Established in 1984, Bartow
             had one office and was a wholly owned subsidiary of Community One Bancshares,
             Inc., a one-bank holding company. The Office of the Comptroller of the Currency
             (OCC) closed Bartow and appointed the Federal Deposit Insurance Corporation
             (FDIC) as receiver on August 20, 2010. As of June 30, 2010, the bank had
             $67.9 million in total assets. FDIC estimated that the loss to the Deposit Insurance
             Fund is $10.3 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Bartow that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, and (2) interviewed OCC problem bank specialist.

             We conducted this performance audit during September 2010 in accordance with
             generally accepted government auditing standards. Those standards require that
             we plan and perform the audit to obtain sufficient, appropriate evidence to provide
             a reasonable basis for our findings and conclusions based on our audit objectives.
             We believe that the evidence obtained provides a reasonable basis for our findings
             and conclusions based on our audit objectives.
OIG-11-011
Page 2

Causes of Bartow’s Failure
The primary causes of Bartow’s failure were its aggressive and concentrated loan
growth in interim loans for residential construction of 1-4 family homes, and
critically-deficient internal controls and risk assessment systems. For example,
Bartow had ineffective risk rating and problem loan identification processes,
ineffective audits and loan review, and improper accounting practices associated
with its other real estate owned (OREO) assets. As a result of this growth strategy
and weak risk management, Bartow experienced significant asset deterioration
beginning in 2008. By 2009, Bartow’s capital levels were critically deficient and
unable to support its high risk profile, which ultimately led to its failure.


Conclusion
Based on our review of the causes of Bartow’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the thrift’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the thrift’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of Bartow’s
failure and that it had no concerns with our determination that an in-depth review
of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-11-011

       Attachment 1
Management Response
                                                   OIG-11-011

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
